No.

IN THE

Supreme Court of the United States
EUGENE SONNIER, II,
Petitioner,
v.
CATHOLIC FOUNDATION OF THE DIOCESE OF
LAYFETTE, ET AL.,
Respondents.

CERTIFICATE OF SERVICE
I hereby certify that three copies of the above
and foregoing has been served upon counsel for
all parties to this proceeding by mailing same by
first class United States mail, postage prepaid
and properly addressed this 9th day of
September, 2019. (See Parties Below).

s/ G. Karl Bernard
G. KARL BERNARD

Troy A. Broussard, Esq.
Allen & Gooch
2000 Kaliste Saloom Rd Ste 400
Lafayette LA, 70508
(337) 291-1000
Attorney for The Catholic Foundation of
The Diocese of Lafayette, Society of The
Roman Catholic Church of The Diocese of
Lafayette, and The Congregation of Saint
Genevieve Roman Catholic Church

Ryan M. Seidemann
Christopher J. Lento
Assistant Attorneys General
Civil Division 1885 North Third Street
Baton Rouge, LA 70804-9005
(225) 326-6085
Attorneys for The Louisiana Cemetery
Board
Ms. Norlet Pierre
P.O. Box 92742
Lafayette, LA 70509
Pro se Defendant/Appellee

